   December 6, 2002




Human Capital
Results of the Survey Regarding
Undue Influence on Army
Component Members to Join
Non-Federal Entities
(D-2003-032)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CW                    Chief Warrant
DAIG                  Department of the Army Inspector General
JER                   Joint Ethics Regulation
NFE                   Non-Federal Entity
OGC                   Office of the General Counsel
OIG                   Office of the Inspector General
PO                    Private Organization
USD(P&R)              Under Secretary of Defense for Personnel and Readiness
WO                    Warrant Officer
           Office of the Inspector General of the Department of Defense
Report No. D-2003-032                                                   December 6, 2002
   (Project No. D2002LF-0154)

        Results of the Survey Regarding Undue Influence on Army
           Component Members to Join Non-Federal Entities

                                 Executive Summary

Who Should Read This Report and Why? Personnel in the Office of the Under
Secretary of Defense for Personnel and Readiness responsible for military personnel
policies and military commanders and personnel responsible for ethics and standards of
conduct regulations should read this report. The report discusses the results of a survey
concerning coercion or pressure to join non-Federal entities. A non-Federal entity is a
self-sustaining non-Federal person or organization that is established, operated, and
controlled by any individual(s) acting outside the scope of any official capacity as
officers, employees, or agents of the Federal Government.

Background. On June 7, 2002, the Under Secretary of Defense for Personnel and
Readiness requested that the Office of the Inspector General of the Department of
Defense assess the implementation of policies with regard to inappropriate coercion or
pressure for Army members to join various non-Federal entities. The Under Secretary
requested that the evaluation include a quick-look type of survey of active Army, Army
Reserve, and Army National Guard personnel on the nature of any such practices
(coercion or pressure) by commanders or supervisors and assess compliance with
applicable standards. The Under Secretary requested that the evaluation be completed in
60 to 90 days.

Representatives from the Office of the Inspector General of the Department of Defense
surveyed 2,914 active Army, Army Reserve, and Army National Guard members from
August 12 through August 23, 2002, at eight judgmentally selected training installations.
The surveys were designed and processed with emphasis on ensuring the anonymity of
all respondents.

Results. The respondents to our survey indicated that DoD prohibitions on coercing or
pressuring Army members to join non-Federal entities have not been fully implemented
or complied with. The following summarizes the results of the surveys.

       •    Eighteen percent of the respondents stated they were aware of a situation
            occurring in the last 12 months regarding coercion or pressure related to
            non-Federal entity membership and 19 percent were aware of a situation that
            occurred more than 12 months ago.

       •    Thirty-one percent of the respondents stated that the Army had provided
            adequate training about joining non-Federal entities, 38 percent said the
            training was not adequate, and 31 percent did not know.
       •   Thirty-eight percent of the respondents stated that the Army had provided
           adequate guidance about prohibiting commanders or supervisors from
           coercing or pressuring personnel to join non-Federal entities, 30 percent said
           the guidance was inadequate, and 32 percent did not know.

       •   Eighteen percent of the respondents stated their belief that commanders or
           supervisors were tracking membership in non-Federal entities.

Management Comments. We provided a draft of this report on October 23, 2002. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                            ii
Table of Contents

Executive Summary                                                             i

Background                                                                    1

Limitations on Use of Report Data                                             3

Objectives                                                                    3

Implementation of Policies Regarding Coercion or Pressure to Join
  Non-Federal Entities                                                        4

Appendixes
     A. Scope and Methodology                                                11
     B. Under Secretary of Defense for Personnel and Readiness
        Memorandum                                                           15
     C. Non-Federal Entities (NFEs) Questionnaire                            16
     D. Individual Responses to Situations Involving NFEs That Occurred
          in the Last 12 Months                                              18
     E. Individual Responses to Situations Involving NFEs That
          Occurred More Than 12 Months Ago                                   21
     F. Synopsis of Army Inspector General Reports on Coercion or Pressure
          Related to NFE Membership                                          24
     G. Report Distribution                                                  25
Background
    On June 7, 2002, the Under Secretary of Defense for Personnel and Readiness
    (USD[P&R]) requested the Office of the Inspector General (OIG) of the
    Department of Defense conduct a survey of active Army, Army Reserves, and
    Army National Guard personnel with regard to coercion or pressure to join
    non-Federal entities (NFEs). The USD(P&R) requested that we provide results of
    the survey in 60 to 90 days of the request. The USD(P&R) request is in
    Appendix B.

    Assessment of the Environment With Respect to DoD and Army Policies.
    Representatives from the OIG of the Department of Defense developed and
    administered a survey that focused on incidents of coercion or pressure regarding
    NFE membership and the respondent’s awareness of Army training, guidance,
    and possible tracking of NFE membership. Two questions asked respondents
    about experiences with eight situations involving NFEs during two time frames:
    the last 12 months and more than 12 months ago. The survey is in Appendix C.
    For purposes of this report, the term Army component means the active Army, the
    Army Reserve, or the Army National Guard.

    DoD Policy Guidance. DoD Directive 5500.7, “Standards of Conduct,”
    November 2, 1994, establishes policy, responsibilities, and procedures relating to
    standards of conduct in the Department of Defense. The directive states that DoD
    shall have a single source of standards of ethical conduct and ethics guidance and
    authorizes the publication of the Joint Ethics Regulation (JER) as the single
    source for ethical standards. The directive also establishes that the Office of the
    General Counsel (OGC) of the Department of Defense shall have approval
    authority for DoD component documents implementing or supplementing the
    JER.

    DoD Regulation 5500.7-R, “Joint Ethics Regulation,” August 30, 1993
    (amended), prescribes the standards of conduct required of all DoD employees,
    provides ethics training guidance, and sets general responsibilities and
    enforcement procedures.

    The JER defines an NFE as a self-sustaining non-Federal person or organization
    that is established, operated, and controlled by any individual(s) acting outside the
    scope of any official capacity as officers, employees, or agents of the Federal
    Government. Subsection 3-209 states that endorsement of an NFE, event,
    product, service, or enterprise may be neither stated nor implied by DoD or DoD
    employees in their official capacities and that titles, positions, or organization
    names may not be used to suggest official endorsement or preferential treatment
    of any NFE.

    There are exceptions to subsection 3-209. Subsection 3-210 permits endorsement
    for fundraising and membership drives for the Combined Federal Campaign;
    emergency and disaster appeals approved by the Office of Personnel
    Management; the Army Emergency Relief; and other organizations composed
    primarily of DoD employees or their dependents when fundraising among their


                                          1
own members for the benefit of their members. The exceptions are authorized by
Executive order or the Code of Federal Regulations and are covered under
separate directives that prohibit employee coercion in any way to participate in or
contribute to any fundraising or membership drive.

Subsections 3-209 and 3-210 are considered general orders and are applicable to
all military members without further implementation. Violations of general
orders may be punishable as violations of lawful general orders under Article 92
of the Uniform Code of Military Justice.

Army Command Policy and Guidance. Army Regulation 600-20, “Army
Command Policy,” July 15, 1999, discusses Army policy on basic responsibilities
of command, military discipline, and conduct. The regulation states that in
support of NFEs, post commanders and heads of Army staff agencies do the
following.

           •    Ensure membership among personnel under their jurisdiction is truly
                voluntary.

           •    Prohibit any practice that involves or implies compulsion, coercion,
                influence, or reprisal in the conduct of membership campaigns.
                Prohibitions include repeated orientations, meetings, or similar
                counseling of persons who have chosen not to join after given a
                chance to do so. It also includes using membership statistics in
                support of supervisory influence.

           •    Prohibit any practice that involves or implies Army sponsorship or
                endorsement of an entity or its activities.

           •    Prohibit the use of Government property, facilities, or services as an
                inducement to join an NFE.

Army Regulation 600-20 does not prohibit commanders from informing
personnel about membership in NFEs. When doing so, commanders will ensure
that they do not use coercion or favor one organization over another.
Army Regulation 210-22, “Private Organizations on Department of the Army
Installations,” November 1, 2001, provides policy and procedures for authorizing
and operating private organizations1 (POs) on Army installations. Chapter 4,
which discusses Army personnel participation in POs operating on Army
installations, requires neutrality in dealing with POs and prohibits employees
from coercing, influencing, or compelling other employees to join POs.




1
    A private organization is a self-sustaining and non-Federal entity, incorporated or
    unincorporated, which is operated on DoD installations with the written consent of the
    installation commander, or higher authority, by individuals acting exclusively outside the scope
    of any official capacity as officers, employees, or agents of the Federal Government.



                                              2
Limitations on Use of Report Data
     The time constraints of the evaluation did not permit the use of a statistical
     sample. Because the active Army, Army Reserve, and Army National Guard
     locations visited and the individual respondents were not randomly selected, the
     results cannot be generalized or statistically projected to the universe of the entire
     Army or to the individual components. Additionally, the survey results are
     descriptive and are not intended to be used for comparative purposes. Component
     and pay grade respondent populations are not proportional to the actual Army
     component populations and the occupational skills of the respondents may not be
     representative of each Army component. Additionally, the survey responses and
     written comments reflect the perceptions of Army personnel concerning pressure
     to join NFEs and cannot be validated.


Objectives
     The overall evaluation objective was to evaluate the Army implementation of and
     compliance with DoD and Army policies with regard to coercing or pressuring
     Army personnel to join various NFEs. Specifically, we evaluated whether active
     Army, Army Reserve, and Army National Guard personnel were coerced or
     pressured to join NFEs. See Appendix A for a discussion of the evaluation scope
     and methodology. See Appendix F for a synopsis of Army Inspector General
     reports related to coercion or pressure related to NFE membership.




                                           3
           Implementation of Policies Regarding
           Coercion or Pressure to Join
           Non-Federal Entities
           Active Army, Army Reserve, and Army National Guard members
           responding to the survey indicated that DoD prohibitions on coercing or
           pressuring Army members to join NFEs have not been fully implemented
           or complied with. The following summarizes the results of the surveys.

                   •   Eighteen percent of the respondents stated they were aware of
                       a situation occurring in the last 12 months regarding coercion
                       or pressure related to NFE membership. Nineteen percent of
                       the respondents stated they were aware of a situation occurring
                       more than 12 months ago regarding coercion or pressure
                       related to NFE membership.

                   •   Overall, 31 percent of the respondents stated that the Army had
                       provided adequate training about joining NFEs. Thirty-eight
                       percent said the training was not adequate, and 31 percent said
                       they did not know whether the training was adequate.

                   •   Thirty-eight percent of the respondents stated that the Army
                       had provided adequate guidance about prohibiting commanders
                       or supervisors from coercing or pressuring personnel to join
                       NFEs. Thirty percent of the respondents said the Army had not
                       provided adequate guidance on prohibitions related to coercion
                       and pressure to join NFEs, and 32 percent said they did not
                       know whether the Army guidance was adequate.

                   •   Overall, 18 percent of the respondents stated their belief that
                       commanders or supervisors were tracking membership in
                       NFEs.


Respondent Population
    Representatives from the OIG of the Department of Defense surveyed 2,914
    Army, Army Reserve, and Army National Guard members from August 12
    through August 23, 2002. Of the 2,914 surveys, 4 were returned blank. As a
    result, there were 2,910 surveys that contained at least one usable response to at
    least one question.

    For purposes of this report, we refer to five pay grade categories: junior enlisted
    (E1-E4), senior enlisted (E5-E9), warrant officers (WO1-CW[Chief Warrant]5),
    junior officers (O1-O3), and field grade officers (O4-O6). General officers
    (O7-O10) were identified on the survey as a separate category but none responded
    to our survey. Twenty-one respondents (less than 1 percent) left the Army



                                         4
component affiliation or pay grade question blank. Table 1 provides the enlisted,
warrant officer, and officer composition, by Army component, of respondents to
our survey.

                      Table 1. Number and Percent of Respondents

                                                       Number of    Percent of
                 Component and Pay Grade              Respondents      the
                                                                    C          t
       Active Army—41 percent of total respondents
        Field grade officer                                37             3
        Junior officer                                    510            43
        Warrant officer                                   109             9
        Senior enlisted                                   351            29
        Junior enlisted                                   193            16
         Subtotal                                       1,200           100
       Army Reserve—25 percent of total respondents
        Field grade officer                              179             25
        Junior officer                                    66              9
        Warrant officer                                   22              3
        Senior enlisted                                  361             50
        Junior enlisted                                   96             13
         Subtotal                                        724            100
       Army National Guard—33 percent of total
        Field grade officer                               95             10
        Junior officer                                   110             11
        Warrant officer                                  101             10
        Senior enlisted                                  297             31
        Junior enlisted                                  362             38
         Subtotal                                        965            100
       Unknown Component and/or pay grade                 21

         Total                                          2,910



Variables such as a respondent’s occupational specialty, geographic location, unit
personnel structure, or Army component mission might have impacted the
responses. The survey consisted of questions related to demographics, situations
involving coercion or pressure regarding NFEs occurring in the last 12 months,
situations involving coercion or pressure regarding NFEs that occurred more than
12 months ago, adequacy of Army training and guidance, and perceived tracking
of NFE membership.




                                       5
Coercion or Pressure Regarding NFE Membership
    Active Army, Army Reserve, and Army National Guard members responding to
    the survey indicated that DoD prohibitions on coercing or pressuring Army
    members to join non-Federal entities have not been fully implemented or
    complied with. Many of the respondents indicated that they were aware of
    situations involving coercion or pressure related to NFE membership that
    occurred in the last 12 months or more than 12 months ago.

    Situations That Occurred in the Last 12 Months. Eighteen percent of the total
    respondents indicated that they were aware of at least one occurrence of coercion
    or pressure related to membership in NFEs that occurred in the last 12 months.
    The 18 percent includes every respondent that answered “yes” to at least one of
    the eight specific situations of coercion or pressure in question 3 of the survey.
    (See Appendix C, subparts “a” through “h” of question 3.)

    Table 2 shows the percent of respondents, by component and pay grade, who
    answered “yes” to at least one of the eight situations.

                     Table 2. Percent of Respondents Who Were Aware of at Least
                      One Situation in the Last 12 Months Involving Coercion or
                                 Pressure Related to NFE Membership

            Component                   E1-E4           E5-E9         WO1-CW5              O1-O3           O4-O6
      Active Army                         8                 25              18                36               16
      Army Reserve                        1                  6              14                18                9
      Army National Guard                 8                 10              33                30               27
      Note: Respondents who did not indicate Army component and/or pay grade are not included in this table.




    The percent of active Army respondents who stated that coercion or pressure
    related to NFE membership had occurred in the last 12 months was lowest among
    junior enlisted members and highest among junior officers. The percent of Army
    Reserve respondents stating that coercion or pressure related to NFE membership
    had occurred in the last 12 months was lowest among junior enlisted members
    and highest among junior officers. The percent of Army National Guard
    respondents stating that coercion or pressure related to NFE membership had
    occurred in the last 12 months was lowest among junior enlisted members and
    highest among warrant officers.

    Table 3 shows the “yes” responses, as a percent, for all of the respondents who
    provided a usable response to one or more of the eight specific situations
    involving coercion or pressure in question 3 of the survey.




                                                        6
             Table 3. Percent of Respondents Who Experienced Specific Situations
                of Coercion or Pressure Involving NFEs in the Last 12 Months

                                                                                       Percent Who Answered
                               Type of Situation                                        “Yes” to a Situation

 Coercion or pressure to join an NFE                                                                 9
 Coercion or pressure to attend an event for the purpose of joining                                  9
 an NFE

 Asked to justify why member was not a member of a specific NFE                                      8
 Selected as a point of contact for an NFE membership drive                                          2
 Commander or supervisor used his or her title or position to                                        8
 support NFE membership drive

 Granted or provided privileges for joining an NFE                                                   4
 Granted promotions for joining an NFE                                                               1
 Threatened with adverse action as a result of not joining an NFE                                    2
 (for example, denied training or lowered performance evaluation)


Situations That Occurred More Than 12 Months Ago. Nineteen percent of the
total respondents indicated that they were aware of at least one occurrence of
coercion or pressure related to NFE membership that occurred more than
12 months ago. The 19 percent includes every respondent who answered “yes” to
one or more of the eight specific situations of coercion or pressure in question 4
of the survey. (See Appendix C, subparts “a” through “h” of question 4.)

Table 4 shows the percent of respondents, by component and pay grade, who
answered “yes” to at least one of the eight situations.

                 Table 4. Percent of Respondents Who Were Aware of at Least
                 One Situation More Than 12 Months Ago Involving Coercion or
                             Pressure Related to NFE Membership

        Component                  E1-E4            E5-E9         WO1-CW5             O1-O3              O4-O6
  Active Army                         5                 21             21                 34               19
  Army Reserve                        2                  7              9                 27               34
  Army National Guard                 6                 11             36                 26               41
  Note: Respondents who did not indicate Army component and/or pay grade are not included in this table.




The percent of active Army respondents who stated that coercion or pressure
related to NFE membership had occurred more than 12 months ago was lowest
among junior enlisted members and highest among junior officers. The percent of
Army Reserve respondents who stated that coercion or pressure related to NFE


                                                    7
    membership had occurred more than 12 months ago was lowest among junior
    enlisted members and highest among field grade officers. The percent of Army
    National Guard respondents who stated that coercion or pressure related to NFE
    membership had occurred more than 12 months ago was lowest among junior
    enlisted members and highest among field grade officers.

    Table 5 shows the “yes” responses, as a percent, for all of the respondents who
    provided a usable response to one or more of the eight specific situations
    involving coercion or pressure in question 4 of the survey.

                Table 5. Percent of Respondents Who Experienced Specific Situations
                 of Coercion or Pressure Involving NFEs More Than 12 Months Ago

                                                                          Percent Who Answered
                              Type of Situation                            “Yes” to a Situation

     Coercion or pressure to join an NFE                                          13
     Coercion or pressure to attend an event for the purpose of joining           11
     an NFE

     Asked to justify why member was not a member of a specific NFE               10
     Selected as a point of contact for an NFE membership drive                    2
     Commander or supervisor used his or her title or position to                 10
     support NFE membership drive

     Granted or provided privileges for joining an NFE                             5
     Granted promotions for joining an NFE                                         1
     Threatened with adverse action as a result of not joining an NFE              3
     (for example, denied training or lowered performance evaluation)


    The numbers of responses to each of the specific situations are broken out by pay
    grade and by Army component in Appendixes D and E.


Army Training, Guidance, and Tracking of NFE Membership
    The survey included questions that were designed to assess Army members’
    perceptions regarding the adequacy of Army training and guidance, and the
    perceived tracking of membership in NFEs.

    Adequacy of Training. Thirty-one percent of all respondents stated they
    believed that the Army had provided adequate training about joining NFEs.
    Thirty-eight percent of all respondents stated they believed the Army had not
    provided adequate training about joining NFEs, and 31 percent said they did not
    know. Table 6 shows the respondents, by Army component and pay grade, who
    stated they believed the NFE training was adequate.



                                                  8
          Table 6. Percent of Respondents Who Believed NFE Training Was Adequate
       Component                  E1-E4            E5-E9            WO1-CW5               O1-O3           O4-O6
 Active Army                       21                32                   44                 37            58
 Army Reserve                      16                27                   45                 35            37
 Army National Guard               23                30                   32                 30            37
 Note: Respondents who did not indicate Army component and/or pay grade are not included in this table.



Sufficiency of Army Guidance. Thirty-eight percent of the respondents stated
they believed that the Army had provided sufficient guidance about prohibiting
commanders or supervisors from coercing, pressuring, or requiring personnel to
join NFEs. Thirty percent of the respondents stated they believed the Army had
not provided adequate guidance, and 32 percent said they did not know whether
the guidance was adequate. Table 7 shows the percent of respondents by Army
component and pay grade who stated they believed NFE guidance was sufficient.

          Table 7. Percent of Respondents Who Believed NFE Guidance Was Adequate
        Component                  E1-E4             E5-E9            WO1-CW5                O1-O3        O4-O6
 Active Army                         32                 37                 50                     40       68
 Army Reserve                        30                 35                 45                     41       42
 Army National Guard                 36                 36                 37                     38       48
 Note: Respondents who did not indicate Army component and/or pay grade are not included in this table.



Membership in NFEs. Overall, 18 percent of the respondents stated they
believed their commanders or supervisors were tracking membership in NFEs.
Forty-three percent perceived that commanders or supervisors were not tracking
membership, and 39 percent said they did not know. Table 8 shows the percent of
respondents by Army component and pay grade who believed NFE membership
was tracked.

            Table 8. Percent of Respondents Who Believed Membership Was Tracked
       Component                   E1-E4             E5-E9           WO1-CW5               O1-O3          O4-O6
 Army                                 9                 19                13                  32           14
 Army Reserve                         3                  6                 9                  20           16
 Army National Guard                  7                 14                46                  29           49
 Note: Respondents who did not indicate Army component and/or pay grade are not included in this table.


Comments Regarding NFE Membership. The survey provided a section where
respondents could expand on any of their answers or provide additional comments
about pressure to join NFEs. We received 386 comments. Some of the 2,910
respondents provided more than one comment. Fifty-six of the comments were
not relevant to the subject of coercion or pressure to join NFEs and 63 of the
comments addressed NFE awareness or training. Of the 267 remaining


                                                    9
    comments, we considered 31 to be positive in nature, 228 to be negative, and 8 to
    be neutral. The respondents made more than 10 negative comments about each of
    the following 6 entities: the Army Aviation Association of America, the Army
    Emergency Relief, the Association of the United States Army, the Combined
    Federal Campaign, the National Guard Association of the United States, and
    officer’s and enlisted clubs.


Prior Army Coverage of NFEs
    In February 1998, the Department of the Army Inspector General (DAIG) issued
    the “Special Inspection of the Army’s Relationship With Private Organizations.”
    The DAIG stated that the frequency of noncompliance with NFE policies seemed
    to be on the increase. The report recommendations were designed to preserve and
    maximize the good benefits of NFEs and were intended to clearly articulate what
    can and cannot be done to support NFEs. The report recommendations were also
    intended to inform commanders and supervisors about inappropriate influence
    and protect them from unfair criticism. The DAIG concluded that increased
    awareness through education followed by systematic compliance would resolve
    the problems the Army was experiencing with its relationship with POs.

    In addition to the DAIG report, we identified installation Inspector General
    reports at two of the eight sites visited that addressed NFEs. One report stated
    that regulations, policy, and law were widely and selectively disobeyed, resulting
    in a strong appearance of endorsement and preferential treatment of NFEs. The
    other report found that 10 percent of surveyed soldiers perceived they were
    pressured to join an NFE and 27 percent said they were required to attend
    presentations encouraging participation in certain NFEs. In addition, the second
    report stated that DoD employees were using official time to conduct NFE
    business and that there was perceived or actual preferential treatment of some
    NFEs. The reports are summarized in Appendix F.


Conclusion
    Although we agree that NFEs provide important benefits and opportunities to
    Army component personnel, our survey results show that many respondents were
    aware of situations of coercion or pressure to join NFEs. Additionally, while
    there is a wide array of guidance in the Army that supplements or implements the
    JER guidance, many respondents believed the Army has not provided adequate
    guidance.

    Because the USD(P&R) requested the survey results in such a short time frame,
    we are still in the process of analyzing the survey responses and other information
    collected. Accordingly, this report does not include recommendations for
    corrective actions. We will provide recommendations separately when we have
    completed our analysis.




                                        10
Appendix A. Scope and Methodology
   We reviewed pertinent policies, guidance, and laws dated from October 1992
   through November 2001 related to standards of conduct and ethics. From June 28
   through August 2, 2002, teams from the OIG of the Department of Defense met
   with personnel from the offices of the Chief of the Army Reserve, the National
   Guard Bureau, the Army Reserve Command, and the Training and Doctrine
   Command to identify installations to be visited. We visited judgmentally selected
   Army installations in the continental United States.

   To query active Army, Army Reserve, and Army National Guard personnel on
   their experiences related to coercion or pressure to join NFEs, personnel from the
   OIG of the Department of Defense developed a survey that was administered to
   2,914 Army component members. The survey focused on perceptions of undue
   influence to join NFEs. We administered the surveys at eight training locations in
   a classroom environment. Members from the active Army, Army Reserve, and
   Army National Guard were located at each installation; however, teams
   concentrated on the dominant Army affiliation at each installation. The students
   at the installations who responded to the survey represented numerous Army
   occupational skills and installations.

   Of the 2,914 surveys administered, 4 were returned blank, leaving 2,910 usable
   surveys. Analysis of the data from the 2,910 surveys showed the number of
   responses for each question varied. For example, not all respondents answered all
   questions, and some respondents answered only one or two parts of a multipart
   question. As a result, baselines for the results presented in this report vary,
   depending on the number of respondents who provided usable responses to each
   part of each question.

   For example, Army component-wide information in this report may have been
   based on as many as 2,910 responses. For questions that were analyzed by
   component and pay grade, the maximum baseline was 2,889 because 21
   individuals did not complete the component or pay grade demographic question.
   The survey shown in Appendix C asked the respondents to identify their current
   pay grade. One of the categories was general officer pay grade O7 through O10.
   None of the 2,910 respondents indicated they were of the O7 through O10 pay
   grade. As a result, the O7 through O10 pay grade was not included in our
   analysis.

   Nothing in the survey or in the processing of the survey allowed us to identify a
   specific respondent or unit. To ensure that Army members would understand the
   survey, we tested the draft survey at one Army installation and with a group of
   military officers in the OIG of the Department of Defense. The comments from
   the test participants were, in some cases, incorporated into the final survey.

   We performed this evaluation from June through October 2002 according to
   standards implemented by the OIG of the Department of Defense. We did not
   review management controls because the evaluation was limited to the
   implementation of and compliance with policies regarding membership in NFEs.
   In addition, the survey results could not be validated because the results reflect


                                       11
the perceptions of Army personnel concerning pressure to join NFEs. Also, the
USD(P&R) requested a prompt response to his request because of concerns about
morale issues caused by undue command influence. Because this report is a
summarization of data, we did not include all elements of a finding as suggested
by the Government Auditing Standards. This report does not include
recommendations for actions to correct the problems discussed in the report.
Recommendations will be made separately.

Representativeness of Survey Results. In a statistical sense, the
representativeness of a sample is determined by whether the method of its
selection was random or involved human judgment. Our samples were
judgmental. The results of the surveys discussed in this report are representative
only of the respondents to the survey and should not be generalized to the entire
Army. The time constraints of the evaluation did not permit use of a sampling
plan that would have allowed the results to be projected to the Army in total or to
the individual Army components. Other limitations regarding the survey results
include the following.

       •   Army training locations were judgmentally selected or were selected
           as a result of discussions with Army component headquarters
           personnel. At the locations visited, classroom and individual
           respondents were not randomly selected. We were unable to
           determine selection probabilities. Therefore, the survey results cannot
           be statistically projected.

       •   The proportions of junior and field grade officers, warrant officers,
           and junior and senior enlisted members in our judgmental sample
           differ from component to component and are not proportional to the
           overall populations. As a result, survey responses are not
           representative of an Army component. Additionally, occupational
           skills of the respondents may not be representative of the population of
           the Army or its components.

       •   Many of the responses reflect Army members’ perceptions, the
           accuracy of which cannot be validated.
       •   The survey results are descriptive and are not intended to be used for
           comparative purposes.

Administering the Survey. Before administering the survey to Army component
members, representatives from the OIG of the Department of Defense read the
following prepared proctor statement.
           Good morning (afternoon). We are from the Department of Defense
           Office of the Inspector General. I am (your name) and (introduce
           co-workers).

           The Under Secretary of Defense for Personnel and Readiness has
           tasked the DoD Inspector General to assess the implementation of DoD
           and Army policies regarding pressure and/or coercion to join




                                       12
            non-Federal entities. We have been tasked to question Army personnel
            and report the results back to the Under Secretary by mid-September.

            We are asking you to complete a short survey about your perceptions
            or experiences related to coercion or pressure to join non-Federal
            entities. You will be asked questions related to two time periods:
            recent situations during the last 12 months and older situations beyond
            12 months ago. The same survey is being administered at seven other
            active Army, Army Reserve, and National Guard locations. For this
            survey, the term “non-Federal entities” means a self-sustaining, non-
            Federal organization established and operated outside the scope of the
            Federal Government.

            Examples of non-Federal entities include the American Legion, the
            Association of the United States Army, the Vietnam Helicopter Pilots
            Association, the Army Reserve Association, the National Guard
            Association of the United States, or the Military Order of the Purple
            Heart. Also included are professional organizations such as the
            American Society of Military Comptrollers (a non-Federal entity for
            financial and comptroller personnel).         Remember that these
            organizations are just examples – we are not trying to limit you to the
            entities I have just mentioned.

            The following entities should NOT be considered when answering this
            survey: Officer and Enlisted Clubs, the Combined Federal Campaign,
            Emergency and Disaster Appeals, the Army Emergency Relief, and
            other organizations composed primarily of DoD employees or their
            dependents when fundraising among their own members for the benefit
            of their members. For example, bake sales and car washes.

            Filling out this survey should take about 10 minutes and your answers
            will remain anonymous. The survey is designed to ensure that
            individuals cannot be identified. In that regard, please do not mark the
            surveys in any identifying manner, except to answer the questions.

            If you wish to discuss issues about pressure to join non-Federal entities
            that are not covered in the survey or you wish to expand on any of your
            answers, feel free to submit additional comments in the comments
            section at the end of the survey. In addition, we are handing out cards
            with an e-mail address and telephone number in case anyone desires to
            provide comments at a later time. If you call the 1-800 number,
            mention that your call is in reference to this survey.               All
            correspondence is received by the Director of the DoD Hotline who
            ensures the anonymity of the callers.

            Thank you for your cooperation.

To protect the anonymity of the respondents, we did not use any individual
identifiers, either explicit or implicit, in the design, execution, or analysis of the
survey. That meant that a limited amount of demographic information was
collected. The final data file has no identifiers, and it is impossible to determine
from which Army member the survey originated.


                                          13
Data Collection. Classes at each of the training locations were chosen based on
their size and the pay grades of students within the class. OIG team members
distributed and collected surveys in each class. Although each OIG team knew
approximately how many students would be in each class, final numbers
fluctuated due to last minute cancellations or schedule changes.

Data Processing. Completed surveys and respondent answers were entered into
a computerized database. Each survey was assigned a unique record number,
entered into the database, and tabulated. Each computer-processed data entry was
verified for accuracy.

Analytical Approach. We used partial responses if a meaningful interpretation
was possible, maximizing the use of the information collected.

Use of Technical Assistance. Personnel from the Quantitative Methods
Division, OIG of the Department of Defense reviewed the methodology used to
determine the existence of coercion or pressure regarding NFE membership
discussed in this report.




                                   14
Appendix B. Under Secretary of Defense for
            Personnel and Readiness
            Memorandum




                       15
Appendix C. Non-Federal Entities Questionnaire




                      16
17
Appendix D. Individual Responses to Situations
            Involving NFEs That Occurred in
            the Last 12 Months
    Question 3 of the survey in Appendix C asked whether respondents were aware of
    any of eight situations in the last 12 months involving commanders or supervisors
    undue influence regarding NFEs. Tables D-1 through D-8 provide summary
    information, by each of the 8 parts of question 3, for situations that occurred in
    the last 12 months. Respondent information is shown by pay grade and Army
    component. Two numbers are provided in the tables’ data entries. The first
    number is how many respondents answered yes to the question; the second is the
    total number of respondents by component and pay grade who provided a usable
    answer to the question.

              Table D-1. Respondents Who Stated Commanders or Supervisors Coerced,
                            Pressured, or Required Them to Join an NFE
          Component                  E1-E4             E5-E9            WO1-CW5                O1-O3            O4-O6
    Active Army                      7/193           42/350                6/108            102/508              3/37
    Army Reserve                      1/96            5/358                 0/22               8/66             6/178
    Army National Guard              6/361           10/294               24/100             22/110             16/94

    The first number is the number of respondents who answered yes to the question. The second number is the total number
    of respondents in that component and pay grade who provided a usable answer to the question.




     Table D-2. Respondents Who Stated Commanders or Supervisors Coerced, Pressured, or
      Required Them to Attend a Presentation or Activity for the Purpose of Joining an NFE
          Component                  E1-E4             E5-E9            WO1-CW5                O1-O3            O4-O6
    Active Army                      8/193           53/347               11/109            106/505             2/37
    Army Reserve                      0/95            6/359                 1/22               4/66            5/178
    Army National Guard              9/362            9/295               17/101             19/109             3/95

    The first number is the number of respondents who answered yes to the question. The second number is the total number
    of respondents in that component and pay grade who provided a usable answer to the question.




                                                        18
  Table D-3. Respondents Who Stated They Were Asked by Commanders or Supervisors
               to Justify Why They Were Not a Member of a Specific NFE
      Component                  E1-E4             E5-E9            WO1-CW5                O1-O3            O4-O6
Active Army                      6/193            49/350               7/107              81/507            3/37
Army Reserve                      0/95             8/360                0/22                5/66           6/176
Army National Guard              7/361            13/296              16/101              14/110            8/95

The first number is the number of respondents who answered yes to the question. The second number is the total number
of respondents in that component and pay grade who provided a usable answer to the question.




         Table D-4. Respondents Who Were Selected by Commanders or Supervisors
                  as a Unit Point of Contact for an NFE Membership Drive
      Component                   E1-E4              E5-E9           WO1-CW5               O1-O3            O4-O6
Active Army                       2/193              5/350             3/109              22/509            0/37
Army Reserve                       0/96              1/359              1/22                2/66           5/179
Army National Guard               3/361              2/295             2/101               2/110            5/95

The first number is the number of respondents who answered yes to the question. The second number is the total number
of respondents in that component and pay grade who provided a usable answer to the question.




   Table D-5. Respondents Who Stated Commanders or Supervisors Used His/Her Title,
         Office, or Position to Support Membership Drives Sponsored by an NFE
      Component                   E1-E4              E5-E9           WO1-CW5               O1-O3            O4-O6
Active Army                       4/192             47/349            11/109              91/509            2/37
Army Reserve                       0/96             12/359              2/22                5/66           5/179
Army National Guard               5/361             12/294            19/101              18/110            7/94

The first number is the number of respondents who answered yes to the question. The second number is the total number
of respondents in that component and pay grade who provided a usable answer to the question.




                Table D-6. Respondents Who Stated Commanders or Supervisors
                   Provided Them Privileges, or Benefits, for Joining an NFE
      Component                   E1-E4              E5-E9           WO1-CW5               O1-O3            O4-O6
Active Army                       6/192             37/348             6/108              44/508            1/37
Army Reserve                       1/96              6/360              1/21                1/66           0/179
Army National Guard              13/362              1/294             1/101               5/110            1/95

The first number is the number of respondents who answered yes to the question. The second number is the total number
of respondents in that component and pay grade who provided a usable answer to the question.




                                                    19
          Table D-7. Respondents Who Stated Commanders or Supervisors Granted
                           Them Promotions for Joining an NFE
      Component                   E1-E4              E5-E9           WO1-CW5               O1-O3            O4-O6
Active Army                       2/193              3/348             0/108               3/505            0/37
Army Reserve                       0/95              0/355              0/22                0/66           0/177
Army National Guard               9/360              1/294             0/101               0/108            0/94

The first number is the number of respondents who answered yes to the question. The second number is the total number
of respondents in that component and pay grade who provided a usable answer to the question.




 Table D-8. Respondents Who Stated Commanders or Supervisors Took or Threatened to
   Take Adverse Action as a Result of Not Joining an NFE (Examples included denied
    training opportunities, lowered performance evaluations, and denied promotions)
      Component                   E1-E4              E5-E9            WO1-CW5               O1-O3           O4-O6
Active Army                       1/190             11/347               3/107            10/507            1/37
Army Reserve                       0/96              0/358                0/22              0/66           1/176
Army National Guard               2/358              3/295               9/101             4/108            2/95

The first number is the number of respondents who answered yes to the question. The second number is the total number
of respondents in that component and pay grade who provided a usable answer to the question.




                                                    20
Appendix E. Individual Responses to Situations
            Involving NFEs That Occurred
            More Than 12 Months Ago
    Question 4 of the survey in Appendix C asked whether respondents were aware of
    any of eight situations occurring more than 12 months ago that involved
    commanders or supervisors undue influence regarding NFEs. Tables E-1 through
    E-8 provide summary information, by each of the 8 parts of question 4, for
    situations that occurred more than 12 months ago. Respondent information is
    shown by pay grade and Army component. Two numbers are provided in the
    tables’ data entries. The first number is how many respondents answered yes to
    the question; the second is the total number of respondents by component and pay
    grade who provided a usable answer to the question.

              Table E-1. Respondents Who Stated Commanders or Supervisors Coerced,
                            Pressured, or Required Them to Join an NFE
         Component                  E1-E4              E5-E9           WO1-CW5                O1-O3            O4-O6
    Active Army                     5/189            43/348             19/109               133/510            5/37
    Army Reserve                     0/93             5/358               0/22                 15/66          48/179
    Army National                   4/356            17/297             32/100                20/110           29/95
    Guard

    The first number is the number of respondents who answered yes to the question. The second number is the total number
    of respondents in that component and pay grade who provided a usable answer to the question.




     Table E-2. Respondents Who Stated Commanders or Supervisors Coerced, Pressured, or
      Required Them to Attend a Presentation or Activity for the Purpose of Joining an NFE
          Component                   E1-E4              E5-E9           WO1-CW5              O1-O3            O4-O6
    Active Army                       4/189             45/350            13/108             108/510            5/37
    Army Reserve                       1/95             11/356              1/22                9/66          39/179
    Army National Guard               4/359             14/297             17/99              16/110           16/95

    The first number is the number of respondents who answered yes to the question. The second number is the total number
    of respondents in that component and pay grade who provided a usable answer to the question.




                                                        21
  Table E-3. Respondents Who Stated They Were Asked by Commanders or Supervisors
               to Justify Why They Were Not a Member of a Specific NFE
      Component                   E1-E4              E5-E9           WO1-CW5              O1-O3            O4-O6
Active Army                       5/189             36/349            16/109             104/509            2/36
Army Reserve                       0/95              6/357              1/22               10/66          33/179
Army National Guard               5/358             15/297            23/101              16/110           15/95

The first number is the number of respondents who answered yes to the question. The second number is the total number
of respondents in that component and pay grade who provided a usable answer to the question.




         Table E-4. Respondents Who Were Selected by Commanders or Supervisors
                  as a Unit Point of Contact for an NFE Membership Drive
      Component                   E1-E4              E5-E9           WO1-CW5              O1-O3            O4-O6
Active Army                       2/190              5/351             2/109              24/510            0/37
Army Reserve                       0/95              1/358              1/22                2/66           7/179
Army National Guard               1/359              2/297             1/101               3/110            6/95

The first number is the number of respondents who answered yes to the question. The second number is the total number
of respondents in that component and pay grade who provided a usable answer to the question.




    Table E-5. Respondents Who Stated Commanders or Supervisors Used His/Her Title,
          Office, or Position to Support Membership Drives Sponsored by an NFE
      Component                   E1-E4              E5-E9           WO1-CW5              O1-O3            O4-O6
Active Army                       2/190             38/348            12/109              85/510            4/37
Army Reserve                       1/95             15/358              1/22                9/66          33/179
Army National Guard               4/358             15/297            26/101              13/110           21/94

The first number is the number of respondents who answered yes to the question. The second number is the total number
of respondents in that component and pay grade who provided a usable answer to the question.




                Table E-6. Respondents Who Stated Commanders or Supervisors
                   Provided Them Privileges, or Benefits, for Joining an NFE
      Component                   E1-E4              E5-E9           WO1-CW5              O1-O3            O4-O6
Active Army                       5/189             33/350            11/109              54/510            1/37
Army Reserve                       1/95              4/359              1/22                3/66           6/178
Army National Guard              12/358              3/296             4/101               5/110            1/94

The first number is the number of respondents who answered yes to the question. The second number is the total number
of respondents in that component and pay grade who provided a usable answer to the question.




                                                    22
           Table E-7. Respondents Who Stated Commanders or Supervisors Granted
                            Them Promotions for Joining an NFE
      Component                   E1-E4              E5-E9           WO1-CW5              O1-O3            O4-O6
Active Army                       2/189              3/350             0/109                2/510           0/37
Army Reserve                       0/95              1/357              0/22                 0/66          0/178
Army National Guard               6/358              0/294             0/101                2/110           0/94

The first number is the number of respondents who answered yes to the question. The second number is the total number
of respondents in that component and pay grade who provided a usable answer to the question.




 Table E-8. Respondents Who Stated Commanders or Supervisors Took or Threatened to
   Take Adverse Action as a Result of Not Joining an NFE (Examples included denied
    training opportunities, lowered performance evaluations, and denied promotions)
      Component                   E1-E4              E5-E9           WO1-CW5              O1-O3            O4-O6
Active Army                       2/185             10/348             7/108              23/509            0/37
Army Reserve                       0/95              2/355              0/22                3/66          16/178
Army National Guard               2/354              6/296            10/101               4/109            3/93

The first number is the number of respondents who answered yes to the question. The second number is the total number
of respondents in that component and pay grade who provided a usable answer to the question.




                                                    23
Appendix F. Synopsis of Army Inspector General
            Reports on Coercion or Pressure
            Related to NFE Membership
   Department of the Army Inspector General report, “Special Inspection of the
   Army’s Relationship With Private Organizations,” February 1998, assessed the
   Army’s relationship with private organizations (POs). The assessment was
   conducted at 11 Army major commands, 23 installations, and 125 battalions and
   was based on interviews of more than 6,500 personnel from September 1996
   through June 1997. Overall, the assessment found that the Army was selectively
   complying with its policies on POs. More specifically, systemic issues were
   identified with official endorsement and preferential treatment of select POs,
   coercion of soldiers, and improper use of Government resources. The report
   recommended changes to Army policies in Army Regulation 210-1, “Private
   Organizations on Department of the Army Installations and Official Participation
   in Private Organizations.” Army Regulation 210-1 was rescinded in July 1998,
   and its replacement, Army Regulation 210-22, was issued on November 1, 2001.

   Army Aviation Center Inspector General report, “Special Inspection of Private
   Organizations (POs),” August 1999, reported violations, the appearance of
   violations, and perceived violations of Army regulations, DoD directives, and
   Executive orders related to preferential treatment and endorsement of POs.
   Guidance was widely and selectively disobeyed, resulting in a strong appearance
   of endorsement and preferential treatment of POs. In addition, Army leaders
   serving on boards as officers or advisers in POs failed to separate official and
   personal duties and responsibilities. DoD employees were subjected to repeated
   attempts and coercion to join some POs. DoD employees were routinely using
   Federal Government resources for PO business during duty hours without proper
   authorization. DoD employees were soliciting funds and sponsorship and
   services of commercial businesses on behalf of POs during duty hours, in
   uniform, and in their official capacity. Incentives were given to personnel and
   units who contributed to or had the highest contribution to the Combined Federal
   Campaign and Army Emergency Relief. The report also identified a lack of
   penalty for violations.

   Army Fort Benning Inspector General report, “Private Organizations on Fort
   Benning,” Spring 2000, stated that 10 percent of the surveyed soldiers perceived
   they were pressured to join a PO, 27 percent said they were required to attend
   presentations encouraging participation in certain POs, and 10 percent were
   pressured to participate in fundraising activities. In addition, the inspection found
   that DoD employees were using official time to conduct PO business and that
   there was perceived or actual preferential treatment of some POs.




                                        24
Appendix G. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
General Counsel

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
General Counsel
Inspector General
Chief of the Army Reserve
Chief of the National Guard Bureau
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          25
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Michael A. Joseph
Scott J. Grady
Sanford W. Tomlin
Timothy J. Tonkovic
Dawn M. Borum
G. Paul Johnson
Robert J. Hanlon
Anna P. Martin
James A. O’Connell
Robin T. Parrish
Mary J. Gibson
Danny O. Hatten
Elmer J. Smith
Eva M. Zahn
Lynnell E. Hines
J. Steven Epps
Mary Ann Hubbell
William F. Lanyi
Carmen J. Malone
Frank C. Sonsini
H. David Barton
Elizabeth L.N. Shifflett
